HHS/OIG-Audit"Review of Supplemental Claims Submitted by the Connecticut General Life Insurance Company (CGLIC),"(A-04-01-01013)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Supplemental Claim Submitted by the Connecticut General Life Insurance Company (CGLIC)," (A-04-01-01013)
September 18, 2001
Complete
Text of Report is available in PDF format (392 kb).  Copies can also be obtained by contacting the Office of
Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
By letter dated August 27, 1999; CGLIC submitted a claim under its Medicare contract for $16,177,473 of additional costs
for the period October 1, 1989 through September 30, 1997.  The CMS Contracting Officer requested that our office
review the allowability of the additional costs to assist them in evaluating the appropriateness of the claim.  Our
review led to a Negotiated Settlement Agreement between CMS and CGLIC, executed on August 2, 2001, that reduced the claimed
costs by $15,081,097.  The remaining $1,096,376 represented a negotiated settlement of costs that CMS will reimburse
CGLIC under the terms of the Medicare contracts.